No.

In The
Supreme Court of the United States
MAKO ONE CORPORATION, ET.AL,

Petitioners,
v.
CEDAR RAPIDS BANK AND TRUST, ET AL.,

Respondent.
ON PETITION FOR A WRIT OF
CERTIORARI
FROM THE UNITED STATES
COURT OF APPEALS FOR THE
EIGHTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Jack Duran, Jr
4010 Foothills Blvd
S-103, #98
Roseville, California 95747
916-779-3316
duranlaw@yahoo.com

i

QUESTIONS PRESENTED

1. When a Circuit Court finds opposing counsel has
an actual and serious conflict of interest in a civil
case, should the Court view the conflict as a
“structural error” and be required to reverse, remand,
and restart all proceedings? The Circuits are widely
split on the proper remedy when a conflict is found;
cases from multiple Circuits are cited herein
attempting to address this issue, and the decisions
are about equally split on the proper remedy.
Furthermore, there is little guidance on how federal
courts should deal with conflict of interest issues in
civil cases.
2. Is there a violation of constitutional due process if
a Petitioner is not provided an opportunity to prove
harm by way of an evidentiary hearing once a Circuit
Court finds a conflict of interest by opposing counsel?

ii

PARTIES TO THE PROCEEDING
The corporate transaction and the parties involved in
this case are somewhat complex but typical of this
type of transaction.
•

There are four pass-through corporate entities
in this transaction all owned, in whole or in
part, and all were controlled by Petitioner
Bruce DeBolt, an equity investor (Celick Trust)
and Chevron, Inc. (the Federal Historic Tax
Credit investor).

•

The purpose of these entities was to create a
corporate vehicle for the qualifying renovation
expenses (QRE’s) and by extension the historic
tax credits that would be migrated to an entity
that could actually benefit from them.

•

Here, we have several entities under which
qualifying renovation expenditures were made.
Petitioner Mako One, Inc. (“Mako”) purchased
the building, was the fee simple owner, and
spent approximately $8 million in the early
stages of the renovation. Badgerow Jackson,

3

LLC who leased the building from Mako One,
Inc.

then

($6,000,000

invested
of

another

which

came

$9

million

from

the

Respondent Bank) finalizing the data center
and associated infrastructure.
All parties named in the District Court proceedings
were included in the appeal to the Eighth Circuit.
Bruce DeBolt, who is filing pro se, is the personal
Guarantor of both the Respondent Bank and The
Chevron agreements.
The Respondent/Defendant is CEDAR RAPIDS
BANK and TRUST COMPANY.

4

CORPORATE DISCLOSURE STATEMENT
UNDER RULE 29.6
Named Petitioner is Bruce DeBolt represented by
Jack Duran, Jr.; other corporate Petitioners named
in the lower courts are Mako One Corporation,
Badgerow Jackson LLC, and Badgerow Jackson MT,
LLC, which is 99% owned by Chevron, Inc. A
disclosure statement has been submitted, as required
by Rule 29.6.
/s/Jack Duran, Jr.
Jack Duran, Jr.

4010 Foothills Blvd
S-103, #98
Roseville California 95747
916-779-3316
duranlaw@yahoo.com

5

TABLE OF CONTENTS
QUESTION PRESENTED........................................... i
PARTIES TO THE PROCEEDING ............................ ii
CORPORATE DISCLOSURE STATEMENT……….iv
TABLE OF CONTENTS…………………………………v
TABLE OF AUTHORITIES ..................................................... viii
OPINIONS BELOW ..................................................... x
JURISDICTION ........................................................... x
STATUTORY PROVISIONS INVOLVED ................... x
I. STATEMENT ............................................................1
A. THE BADGEROW BUILDING AND THE
BROKEN TRANSACTION.……………………..….2
B. THE CONFLICT OF INTEREST………..……..5
C. THE EIGHTH CIRCUIT'S FINDINGS OF
"HARMLESS ERROR"………….…………………..7
D. PROOF OF THE CONFLICT'S HARM……...12
II. PROCEDURAL HISTORY…………………………13
III.RELIEF REQUESTED…………………………….14
IV. ARGUMENT………………………………………..13
A. The Eighth Circuit Court of Appeals has ruled
Winthrop’s actions were infected by actual
conflicts of interest. That should end this
matter and inquiry, and there should be a
grant of the Petition and remand to restart the
proceedings without the conflict because the
conflict amounts to a “structural error”…….15

1. A conflict of interest by counsel is a structural
error requiring complete reversal…………….15

6

2. The Eighth Circuit application of harmless
error was erroneous………………………….

18

3. The Supreme Court’s guidance is needed to

clarify between the Circuits what is the proper
remedy when a conflict of interest is found 20

4. This Court should provide guidance to lower

courts that when a conflict exists, an analysis
into the degree of harm is impractical,
inappropriate, and against public policy…….22
a) Accurately determining the degree of
harm caused by conflicted counsel is nearly
impossible and requires the harmed party
and court to speculate how counsel used her
position against the party………………. 22
b) Speculating or proving harm by
conflicted counsel asks the harmed party to
potentially divulge information protected by
attorney-client privilege……………………24
c) The burden to identify and remedy
conflicts is on the attorney, not the
client…………………………………………..25
d) Not all of the harmful effects of the
conflicted representation can be realized at
the time of the decision…………………..…27
e) The ruling creates perverse monetary
incentives for attorneys to engage in
conflicts of interest………………………….27
f) Harm extends from the Petitioners to

society as a whole…………………………. 28
B. An appellate court that finds a conflict of

interest by counsel but denies the party the
opportunity to later prove harm violates the
due process clause of the fourteenth
amendment.………………………………………….29

vii

V. CONCLUSION……………………………………………31

8

TABLE OF AUTHORITIES
Cases

Arizona v. Fulminante, 499 U.S. 279, 310, (1991) ...... 18
Becht v. United States, 403 F.3d 541, 547 (8th Cir.
2005).................................................................................15
Brinkerhoff-Faris Tr. & Sav. Co. v. Hill, 281 U.S. 673,
681, 50 S. Ct. 451, 454-455 ........................................ 30
Cedar Rapids Bank & Tr. Co. v. Mako One Corp., 919
F.3d 529, 532 (8th Cir. 2019) .................................... 20
Cuyler v. Sullivan, 446 U.S. 335, 349–50, 100 S. Ct.
1708, 1719, 64 L. Ed. 2d 333 (1980) ......................... 16
Fiandaca v. Cunningham, 827 F.2d 825 (1st Cir.
1987)...................................................................................8
Fred Weber, Inc. v. Shell Oil Co., 556 F.2d 602 (8th Cir.
1977), cert. den. 436 U.S. 905 (1978)........................ 19
Freeman v. Chicago Musical Instrument Co., 689 F.2d
715, 717 (7th Cir. 1982) ............................................. 20
Harris v, Firemans Fund Ins. Co. 119 Cal. App. 4th
671, 14 Cal. Rptr.3rd 618 (2004) .............................. 20
Hollis v. Davis, 941 F.2d 1471, 1473 (11th Cir. 1991)
...........................................................................................20
Holloway v. Arkansas, 435 U.S. 475, 490–91, 98 S.
Ct. 1173, 1182, 55 L. Ed. 2d 426 (1978)................... 17

In re: Davenport Communications Limited Partnership,

109 B.R. 362 (1990)..................................................... 20

Jackson v. Herring, 42 F.3d 1350, 1354 (11th Cir.

1995).................................................................................20

Pound v. DeMera Cameron, 135Cal App. 4th 70.36 Cal.
Rptr. 3rd 922 (2005) ................................................... 20
Richards v. Jefferson Cty., Ala., 517 U.S. 793, 803–
04, 116 S. Ct. 1761, 1768–69, 135 L. Ed. 2d 76
(1996) ...............................................................................30
Strickland v. Washington, 466 U.S. 668, 692, 104 S.
Ct. 2052, 2067, 80 L. Ed. 2d 674 (1984)................... 17
T.C. Theater Corp. v. Warner Bros. Pictures, Inc., 113
F. Supp. 265 (S.D.N.Y. 1953) .................................... 20
United States v. Brandao, 539 F.3d 44, 58 (1st Cir.
2008).................................................................................19
United States v. Edelmann, 458 F.3d 791 (8th Cir.
2006).................................................................................19
United States v. Gonzalez-Lopez, 548 U.S. 140, 148–
50, 126 S. Ct. 2557, 2564, 165 L. Ed. 2d 409 (2006)
...........................................................................................15

9

United States v. Navarro, 608 F3d 529, 538 9th Cir

(2010) ............................................................................ 19

United States v. Stewart, 306 F.3d 295, 321 (6th Cir.

2002) ............................................................................. 15

Westinghouse Electric Corp. v. Kerr-McGee Corp.,

580 F.2d 1311 1978..................................................... 26

Statutes
The Iowa Code of Professional Conduct IPC 32:1.7,
IPC 32.1.8 and 32.1.9 ................................................24

Bruce DeBolt, respectfully petitions for a Writ of
Certiorari to review the judgment of the United
States Court of Appeals for the Eighth Circuit in this
case.

10

OPINIONS BELOW
The opinion of the U.S. District Court for the
Northern District of Iowa - Sioux City appear at
Appendix A to the petition and are published. The
order of the Eighth Circuit Court of Appeals and the
order denying a petition for rehearing en panel and

en banc appears at Appendix B and Appendix C to
the petition and are published.

JURISDICTION
The judgment of the Court of Appeals was entered on
March 21, 2019. A Petition for Rehearing was denied
on July 5, 2019. The jurisdiction of the Court is
invoked pursuant to 28 USCS § 1254.
CONSTITUTIONAL PROVISIONS INVOLVED
This petition raises issues related to the due process
clause of the Fourteenth Amendment. U.S. Const.
amend. XIV.
STATUTORY PROVISIONS INVOLVED
None.

1

I.

STATEMENT OF THE CASE

As the following petition will further detail,
this case raises serious implications about the rights
of persons to fair proceedings and potential violations
of constitutional due process under the Fourteenth
Amendment. The Eighth Circuit found Respondent’s
counsel, who had formerly represented Petitioners,
had an actual conflict of interest. And yet, the Eighth
Circuit refused to reverse the lower court’s judgment
against Petitioners by stating Petitioners “made no
showing of harm” without affording Petitioners an
opportunity or evidentiary hearing to prove or argue
the extent to which they were prejudiced by
conflicted counsel.
The Eighth Circuit essentially determined the
conflict of interest did not amount to a “structural
error” that requires a restart of proceedings. This
decision creates procedural uncertainty for future
litigants and raises considerable questions as to
whether Petitioners’ constitutional due process rights
under the Fourteenth Amendment were violated.

2

Further grounds for certiorari exist as the
Circuits are widely split on the proper remedy once a
conflict of interest is found with opposing counsel; we
believe a different Circuit would have arrived at a
different decision. The Eighth Circuit standard would
require a litigant to “prove” harm when a conflict is
found, which, among other problematic issues, puts
future litigants in a position where they are required
to disclose confidential information decimating the
concept of attorney-client privilege.
For

the

above

reasons,

and

as

further

explained below, Petitioner Bruce DeBolt, pro se,
prays this Court to grant certiorari.
A. The Badgerow Building and the Broken
Transaction.
In looking for a new business opportunity in
2006-2007, Petitioners Mako and Bruce DeBolt
discovered the Badgerow Building.
The building had been condemned, was a
blight on the central business district of Sioux City
Iowa

and

asbestos.

was

extensively

contaminated

with

However, it was named one of the fifty

3

most important historic structures in the State to
save.
In the lead up to the purchase, Mako was
provided

local

government

support

and

the

availability of various government incentives to
renovate

the

property as a

data

center.

The

incentives included both state and federal historic tax
credits (HTC”), 25% and 20% respectively, New
Markets Tax Credits 39%, Tax Increment Financing,
and SBA Opportunity Zone benefits.
At the time, the Iowa State HTC program was
being expanded from a $2.5 million a year program
with a decade long backlog of projects to a $20 million
per year program. Mako’s purchase was contingent
on that legislation passing.
This was an extremely good business venture
for the community and for Mako because of four
critical facts:
a) The commercial real estate market in Sioux
City is, and has been for several decades,

4

comatose - depressing commercial real estate values.
b) Electric costs in Sioux City are some of the
lowest in the nation. The cost of power is to a
data center what water is to a farm. It is the
single largest line item cost for a data center to
manage and can comprise up to 45% of the total
cost of operations. Cheap power bestows a
competitive advantage on the operator. The
cheaper the power, the greater the advantage.
c) The building sits atop a self-refreshing aquifer
that for the computer data center provided an
unlimited source of 55-degree water for cooling
purposes. Cooling can comprise as much as half
of the total power required to operate a data
center.
d) It appeared various government

incentives

could be combined to pay for as much as 75% or
more of the needed renovation.
Accordingly, Petitioner Mako purchased this
condemned 112,000 sq ft commercial office building

5

listed in the National Historic Register. Petitioner
invested more than $18 million in the project, only
$6 million of which was borrowed from Respondent
Bank and to be repaid from the monetization of state
and federal tax credits. The Petitioner renovated the
property as a data center. Third-party tenants
occupied the property and commenced commercial
operations in March 2015.
When the State of Iowa failed to timely pay
the state tax credits as statutorily required, suffering
from its own cash flow constraints, it set off a
waterfall of catastrophic events leading to, among
other things, the default of the loan.
B. The Conflict of Interest
Importantly, the law firm of Winthrop &
Weinstine (“Winthrop”) represented Petitioners in
the structure and set up of the financing and later
represented Respondent Bank Cedar Rapids Bank
and Trust Company (“Respondent” or “the Bank”) in
the subsequent foreclosure. Winthrop continued to
represent Respondent until they were forced to
withdraw after the negative decision by the Eighth

6

Circuit. Appendix B at 11 (“We conclude that the
district court erred in failing to disqualify Winthrop
as counsel for CRBT”).
In representing both parties, Winthrop knew
all

of the

confidential

details

and

proprietary

approaches of both sides. They later picked sides and
chose to represent the Bank alone, then foreclosing
on the property and stripping Petitioners of all their
assets. Winthrop had Petitioner’s playbook, and the
law firm used it against Petitioner in the foreclosure.
Winthrop represented Petitioner from 2011 to
2012, and then concurrently represented both the
Petitioner and the Respondent Bank from 2013 to
2016, and finally it represented the Bank only in
concert with the Receiver in stripping Petitioner of
its assets through foreclosure means during the
period 2016 to 2019. We cannot imagine a more gross
and offensive conflict of interest – to the legal
profession

and

the

institution

of

justice.

Yet

Winthrop barged right into it.
As can be seen from the initial statement by
the Eighth Circuit, the Court was appalled at these

7

actions by the Winthrop law firm and found a conflict
of interest that warranted disqualification from all
issues by Winthrop. In its decision, the Court stated,
“Winthrop undertook to represent another person in
a matter ‘substantially related’ to the matter of the
Mako representation.” Appendix B at 9.
C. The Eighth Circuit’s Finding of “Harmless
Erro r”.
After finding a gross conflict of interest on the
Winthrop firm’s part and chastising them in the
decision for allowing it to occur, the Eighth Circuit
goes on to find that that the conflict was “harmless
error.” See

Appendix B. In finding Winthrop’s

conduct disturbing, the Court states:
[T]the problem the Winthrop firm confronts is
that no informed consent was ever obtained
from Mako. Mako was never informed that its
counsel would represent CRBT in a suit
related to the very same bonds that it drafted
on Mako’s behalf. Winthrop did not inform
Mako that it was remotely possible that
Winthrop would go so far as to call one of its
own partners to testify against Mako in an
action related to its representation of Mako.
Under these circumstances, we conclude that
informed consent was not obtained and Mako
did not validly waive the conflict of interest.

8

Appendix B at 11. However, despite finding a conflict
existed, the Eighth Circuit applies a harmless error
analysis analogizing to a First Circuit (Fiandaca v.

Cunningham, 827 F.2d 825 (1st Cir. 1987) case, and
the Court states:
[The] First Circuit concluded that the trial
court had allowed a lawyer to continue
representation despite an apparent conflict.
The court than considered whether the court’s
abuse of its discretion resulted in an adverse
impact on the rights of the opposing party.
Concluding that there was none, the court
found the error harmless. We find this analysis
persuasive.
Appendix B at 12 (citations omitted). Essentially, the
Court justifies its decision by finding it could not see
any proof that the conflict of interest had affected
parts of the transaction or would have made a
difference in the Petitioners’ “settlement posture”, by
stating:
Winthrop had no compromised ability to settle
with Mako, nor has Mako pointed to any
change in its settlement posture because of the
improper representation. Given the combative
procedural history of this case, it appears the
parties were unlikely to settle, regardless of
representation.

Id. Besides the problematic stance that the court
seems to take by suggesting that the issue of
settlement was somehow important to the finding of

9

harmless error in this case, it cites no basis for that
conclusion other than not finding proof of harm in
the record. The Circuit Court goes on to justify its
decision by suggesting despite an obvious conflict,
there is no reason to doubt Winthrop violated its
duty of confidentiality or that the litigation would
have proceeded any differently with different nonconflicted counsel.
With regard to the merits, Mako has not
claimed that Winthrop used confidential
information gained from preparing Mako’s
bond during its representation of CRBT in this
suit. The record reflects no actual breach of
confidentiality nor any reason to doubt that
Winthrop upheld its duty of confidentiality to
its former client.
The Court found it egregious that Winthrop would
call one of its own partners to testify against Mako in
an action related to its representation of Mako, but
then in a different cadence, concludes that could not
cast doubt on whether Winthrop upheld its duty of
confidentiality to Mako. The Court continues by
taking the position that there is no indication
litigation would have proceeded any differently with
different non-conflicted counsel.:

10

Finally,
it
was
Mako’s
counsel—not
Winthrop—who failed to
oppose
CRBT’s
motion for default judgment, or in the
alternative, summary judgment. Thus, Mako’s
loss is more directly attributable to its own
counsel’s failure to act than anything the
Winthrop firm did or did not do. There is no
reason to believe that Mako’s lawyers would
have acted any differently had CRBT been
represented by a different firm.

Id. Of course, to arrive at these conclusions, the Court
had to speculate conflicted counsel never disclosed
confidential

information

or

used

it

against

Petitioners, and also had to assume the entire

procedural history of the litigation would have played
out exactly the same if conflicted counsel had not
represented Respondent.
Perhaps most importantly, the Court reached
this decision despite the fact Petitioners never had
an opportunity or hearing to prove harm vis-à-vis the
prejudicial impact of the conflict at either the
District Court or the Eighth Circuit.1 And the Court

1 Petitioners did attempt via their briefing to show the
impact of the conflict of interest. See Section 5 of the Petition
for Rehearing (Denied) by which time harm was more
clearly manifesting itself, that the Eighth Circuit seemingly
ignored.

11

did not consider whether there was “structural error”
requiring a full reset of proceedings.
Petitioner will argue, once the gross conflict of
interest by the Winthrop firm was found, this should
have caused an immediate remand and reversal on
all issues as a conflict of interest amounts to
structural error. No consideration of harmless error
was appropriate. And as we discuss below in the
Argument Section IV, there is significant
jurisprudence for the position: when an actual
conflict of interest is found, no inquiry about the
extent of the harm is made; the conflict is presumed
to be impactful and warrants automatic reversal and
remand. The legal profession is rooted in ethics,
truth and an uncompromising oath to protect clients’
confidentiality. Any demonstrable conflict of interest
should automatically cast doubt on the conduct and
integrity of the lawyer and its professional
responsibility to maintain its client’s confidentiality,
especially where this conflict occurs during the
course of legal proceedings.

12

D. Proof of the Conflict’s Harm
If given the opportunity, Petitioners would be
able to show how Winthrop’s dual representation and
conflict of interests harmed Petitioners. First, we
would show Winthrop’s interference and adverse
objectives precipitated a chain of events resulting in
the commencement of the foreclosure proceedings. In
short, Winthrop and Respondent Bank worked
together to dismantle the very financial foundation
upon which the transaction was based and the loan
to be repaid.
Petitioners would also show Winthrop had and
used confidential information for its Bank client’s
benefit against Petitioners in these proceedings.
Minimally, Petitioner would show Winthrop was in
possession of highly useful, confidential attorneyclient privileged information, including but not
limited to:
a) Petitioners’ appetite for litigation, which would
be helpful to the opposing party as they would
know exactly what Petitioners were willing
and able to do.

13

b) Information regarding capacity for litigation.
They knew what Petitioners had in terms of
reserves and ability to expend to set matters
right if things went wrong in litigation.
c) Confidential

marketing

strategies

and

potential clients – – all of this would be
helpful to Respondent once they took over the
project

by

utilizing

the

Receiver,

and

Respondent did use it.
d) Tax returns, advice and positions - This was a
roadmap for Winthrop as to how to best
navigate the upcoming scene for its preferred
and long-time client, the Bank.

II.

PROCEDURAL HISTORY

On January 11, 2018, the Northern District of
Iowa granted summary judgment in Respondent’s
favor. And prior to reaching its decision, the lower
court

denied

Petitioners’

Motion

to

Disqualify

Counsel for a conflict of interests. On March 21, 2019,
some 13 months after the Appeal was timely filed, the
United States Court of Appeals for the Eighth Circuit
issued

a

decision

affirming

the

lower

court’s

judgment for money damages against Petitioners,

14

reversed the District Court’s denial to disqualify
Plaintiff-Appellee’s counsel, and remanded for further
proceedings. After the decision, Petitioner Bruce
DeBolt filed a Petition for Rehearing En Banc/En

Panel pro se that was denied on July 5, 2019 without
comment.

III.

RELIEF REQUESTED

Because there is a clear structural error, the
Eighth

Circuit’s

affirmation

of

the

judgment

awarding damages and property rights to Respondent
against Petitioners should be reversed and remanded
for further proceedings. And to be clear, Petitioners
challenge the Eighth’s Circuit’s requirement to prove
harm, but we do not contest the Eighth Circuit’s
reversal of the lower court’s finding regarding the
Motion to Disqualify Counsel due to the conflict of
interest.

IV.

ARGUMENT

A. The Eighth Circuit Court of Appeals
has ruled Winthrop’s actions were
infected by actual conflicts of interest.
That should end this matter and
inquiry, and there should be a grant of
the Petition and remand to restart the
proceedings without the conflict because

15

the conflict amounts to a “structural
error”.

1. A conflict of interest by counsel is a structural
error requiring complete reversal.
In criminal cases invoking the right to Sixth
Amendment protection of fair trials and effective
assistance of counsel, the Supreme Court has
weighed in on the difference between errors that are
“harmless” and errors that are “structural.” See e.g.,

United States v. Gonzalez-Lopez, 548 U.S. 140, 148–
50, 126 S. Ct. 2557, 2564, 165 L. Ed. 2d 409 (2006)
(citations

omitted).

(“The

second

class

of

constitutional error we called ‘structural defects.’
These ‘defy analysis by ‘harmless-error’ standards’
because they ‘affec[t] the framework within which the
trial proceeds,’ and are not ‘simply an error in the
trial process itself.’). Structural errors “require
automatic reversal, despite the effect of the error on
the trial's outcome.” United States v. Stewart, 306
F.3d 295, 321 (6th Cir. 2002); see also Becht v. United

States, 403 F.3d 541, 547 (8th Cir. 2005).

16

This Court has already considered whether
conflicts of interests in criminal proceedings are
“harmless” or “structural errors” and have found that
they are never harmless.
[U]nconstitutional multiple representation is
never harmless error. Once the Court
concluded that [the party’s] lawyer had an
actual conflict of interest, it refused “to indulge
in nice calculations as to the amount of
prejudice” attributable to the conflict. The
conflict itself demonstrated a denial of the
“right to have the effective assistance of
counsel.” Thus, a defendant who shows that a
conflict of interest actually affected the
adequacy of his representation need not
demonstrate prejudice in order to obtain relief.

Cuyler v. Sullivan, 446 U.S. 335, 349–50, 100 S. Ct.
1708, 1719, 64 L. Ed. 2d 333 (1980) (citations
omitted) (emphasis added). When an actual conflict is
found, prejudice against the client is presumed.
[T]he Court held that prejudice is presumed
when counsel is burdened by an actual conflict
of interest. In those circumstances, counsel
breaches the duty of loyalty, perhaps the most
basic of counsel's duties. Moreover, it
is
difficult to measure the precise effect on the
defense of representation corrupted by
conflicting interests. Given the obligation of
counsel to avoid conflicts of interest and the
ability of trial courts to make early inquiry in
certain situations likely to give rise to conflicts,
see, e.g., Fed.Rule Crim.Proc. 44(c), it is
reasonable for the criminal justice system to
maintain a fairly rigid rule of presumed
prejudice for conflicts of interest. Even so, the

17

rule is not quite the per se rule of prejudice
that exists for the Sixth Amendment claims
mentioned above. Prejudice is presumed only if
the defendant demonstrates that counsel
“actively represented conflicting interests” and
that “an actual conflict of interest adversely
affected his lawyer's performance.”

Strickland v. Washington, 466 U.S. 668, 692, 104 S.
Ct. 2052, 2067, 80 L. Ed. 2d 674 (1984). The reason
for the presumption is because:
[I]t would be difficult to judge intelligently the
impact of a conflict on the attorney's
representation of a client. And to assess the
impact of a conflict of interests on the
attorney's options, tactics, and decisions in
plea
negotiations
would
be
virtually
impossible. Thus, an inquiry into a claim of
harmless error here would require, unlike most
cases, unguided speculation.

Holloway v. Arkansas, 435 U.S. 475, 490–91, 98 S.
Ct. 1173, 1182, 55 L. Ed. 2d 426 (1978).
While it is true that the Supreme Court’s
decisions and dicta cited above are in criminal cases
that rely on the Sixth Amendment for the basis of
their decisions, the reasoning behind why a conflict of
interest can be so damaging equally apply in civil
cases. Further, while most of these cases deal with
scenarios where a conflict was found by a defendant’s
own counsel, we believe the danger or prejudice when

18

the conflict arises from opposing counsel is even more
severe.
We posit that despite this being a civil case
regarding the conflict of opposing counsel, the Eighth
Circuit should not have applied a “harmless error”
analysis

but

rather

determined

there

was

a

structural error where a presumption of prejudice
exists. Winthrop clearly “breach[ed] the duty of
loyalty, perhaps the most basic of counsel's duties . . .
[and] it is difficult to measure the precise effect . . . of
representation corrupted by conflicting interests.” See

Strickland, 466 U.S. at 692. And as the Holloway case
stated, using a harmless error analysis to “assess the
impact of a conflict of interests on the attorney's
options, tactics, and decisions in plea negotiations
would be virtually impossible . . . , an inquiry into a
claim of harmless error here would require . . .
unguided speculation.” See Holloway, 435 U.S. at
490–91.
2. The Eighth Circuit application of harmless
error was erroneous.
In the case of Arizona v. Fulminante, 499 U.S.
279, 310, (1991), this Court states, “a structural error

19

de[fies] analysis by harmless error standards” and is
therefore exempt from harmless error analysis. See

id. at 309. This has been echoed by the lower Circuit
Courts. See United States v. Navarro, 608 F3d 529,
538 9th Cir (2010) (“[S]tructural error” is a term of art
for error requiring reversal regardless of whether it is
prejudicial or harmless”.); United States v. Brandao,
539 F.3d 44, 58 (1st Cir. 2008) (defining structural
errors as constitutional errors that deprive the
defendant of a fundamentally fair trial that may not
be found harmless.)
Here, because the Eighth Circuit clearly found
a conflict of interest, it erred in examining whether
the error was harmless. Courts across multiple
jurisdictions, including this one, have agreed that
once a conflict is found, the proper remedy is to
vacate and remand any judicial decisions tainted by
the presence of conflicted counsel. See e.g., Fiandaca

v. Cunningham, 827 F.2d 825 (1st Cir. 1987); United
States v. Edelmann, 458 F.3d 791 (8th Cir. 2006);
Fred Weber, Inc. v. Shell Oil Co., 556 F.2d 602 (8th
Cir. 1977), cert. den. 436 U.S. 905 (1978); T.C.

Theater Corp. v. Warner Bros. Pictures, Inc., 113 F.

20

Supp. 265 (S.D.N.Y. 1953); In

re:

Davenport

Communications Limited Partnership, 109 B.R. 362
(1990); Pound v. DeMera Cameron, 135Cal App. 4th

70.36 Cal. Rptr. 3rd 922 (2005); Harris v, Firemans
Fund Ins. Co. 119 Cal. App. 4th 671, 14 Cal. Rptr.3rd
618 (2004).
3. The Supreme Court’s guidance is needed to
clarify between the Circuits what is the proper
remedy when a conflict of interest is found.
However, there is still uncertainty among some
the Circuits as to how to deal procedurally when
structural errors or “trial errors” are found. Many of
the Circuit Courts hold that once a structural error is
established there is a presumption t h a t confidences
were violated and nothing more is required to show
harm;

see supra [section above]; other courts

require some showing of prejudice the error created
before vacating a judgment. See e.g., Hollis v. Davis,
941 F.2d 1471, 1473 (11th Cir. 1991); Jackson v.

Herring, 42 F.3d
1350, 1354 (11th Cir. 1995); Freeman v. Chicago

Musical Instrument Co., 689 F.2d 715, 717 (7th Cir.
1982); Cedar Rapids Bank & Tr. Co. v. Mako One

Corp., 919 F.3d 529, 532 (8th Cir. 2019).

21

A good example of the confusion caused by the
multiple approaches in dealing with presumed versus
proven prejudice is the Eleventh Circuit’s analysis in

Jackson v. Herring, 42 F.3d 1350, 1361 (11th Cir.
1995). In Jackson, the Eleventh Circuit contemplates
the competing varying standards of prejudice in
attempting

to

correctly

choose

and

apply

the

standard set in Strickland v. Washington, 466 U.S.
668, 692. (Prejudice is presumed only if the defendant
demonstrates

that counsel

“actively

represented

conflicting interests” and that “an actual conflict of
interest

adversely

affected

his

lawyer's

performance.”) The Eleventh Circuit states:
That the prejudice prong of Strickland is not
co-terminous with the more general prejudice
requirement of Wainwright v. Sykes, under
which a federal habeas petitioner must
demonstrate that the errors “worked
to his
actual and substantial disadvantage, infecting
his entire trial with error of constitutional
dimensions.” Neither is it akin to the
“harmless error” standard of Brecht v.
Abrahamson, under which certain types of
“structural” errors are per se prejudicial.
Rather, the Strickland test asks whether there
is “a reasonable probability that but for
counsel's unprofessional errors, the result of
the proceeding would have been different.” “A
reasonable probability is a probability
sufficient to undermine confidence in the
outcome,” but “a defendant need not show that

22

counsel's deficient conduct more likely than not
altered the outcome in the case.”

Id. (emphases added). The complexity in
defining the contours of “structural errors” verses the
“trial error” analysis is evident by the diversity of the
above

decisions.

The

Court

is

understandably

reluctant to go too far in establishing absolute
mandates of “grant”, “vacate” and “remand”. The
Court appears to be attempting to allow the lower
courts a level of fact-based discretion in reconciling
these two categories of error. Some errors defy a factbased analysis. Often, as is the case here, no record
can be procedurally created. Fundamental fairness of
the judicial process and the broader interests of
society in maintaining the integrity of this process
should take precedence.
Greater clarity from this Court is required to
achieve better consistency across the Circuits in their
rulings and for the fair administration of justice.
4. This Court should provide guidance to lower
courts that when a conflict exists, an analysis
into the degree of harm is impractical,
inappropriate, and against public policy.
a) Accurately determining the degree of harm
caused by conflicted counsel is nearly
impossible and requires the harmed party

23

and court to speculate how counsel used her
position against the party.
As

we

have

previously

argued,

the

jurisprudence of this Court and others is that in a
criminal context, a conflict of interest by counsel
creates the type of structural error (as opposed to a
“trial error”) that so flagrantly poisons the legal
proceedings that a total reset is required.
If on the other hand, more courts were to adopt
the standard that the Eighth Circuit applied here
and attempted to determine the degree of harm, it
would proliferate a standard fraught with potential
issues. To truly determine how much a party was
harmed by conflicted counsel, an accurate calculation
would require knowing specifically how, what, when,
and

where

conflicted

counsel

used

confidential

information, strategy, or any other benefit counsel
would have derived and understood from its previous
representation. Of course, because no person can read
a lawyer’s mind, an accurate calculation would be
impossible, and the harmed party and court would be
left with little choice but to speculate as to what and
how the conflicted lawyer thought.

24

b) Speculating or proving harm by conflicted
counsel asks the harmed party to
potentially divulge information protected by
attorney-client privilege.
As if a party was not harmed enough by
conflicted counsel’s involvement in a case, the lower
court’s requirement that harm be proved asks the
party to divulge information that should be protected
by attorney-client privilege. To fully demonstrate how
conflicted counsel could, or did, use privileged
information against the Petitioner, the Petitioner
would have to divulge the contents of the protected
information to the court (and potentially to the
adverse party). From a policy standpoint, this is most
problematic as the effect is that it creates negative
incentives for clients to be forthcoming with their
lawyers.
The Iowa Code of Professional Conduct Rule

32.1(9) comment 3 and the ABA Model Rules

1:9

state in part: “A former client is not required to

reveal the confidential information learned by the
lawyer in order to establish a substantial risk that
the lawyer has confidential information to use in the
subsequent matter.”

25

The interest of these rules is, of course, to
preserve the sanctity of attorney-client privilege as
the ability to freely and honestly communicate with
one’s lawyer is the bedrock of our judicial system. Yet
the Eighth Circuit’s decision requiring Petitioner to
prove

harm

by

way

of

disclosing

privileged

information seeks the opposite. This is a destructive
position the Court has taken with widespread
implications that affect the judicial system as a
whole; the Supreme Court should act now and nip
this problem in the bud by reversing the decision and
prescribing guidance with a better remedy for dealing
with conflicted counsel.
c) The burden to identify and remedy conflicts
is on the attorney, not the client.
The requirement that a party must prove harm
by conflict also shifts the ethical obligations that all
lawyers are required to abide by from the lawyer to
the client. We believe every jurisdiction of this
country

(including

the

ABA

Model

Rules

of

Professional Conduct) has codified rules governing
attorney conflicts of interest; and in not a single one
would the burden be on the client to identify the

26

conflict or to determine how much they would be
harmed by conflicted counsel.2 The Iowa Code of
Professional Conduct states:
[A] lawyer shall not represent a client if
the representation involves a concurrent
conflict of interest . . . A lawyer who has
formerly represented a client in a matter
shall not thereafter represent another
person in the same or a substantially
related matter in which that person’s
interests are materially adverse to the
interests of the former client.
Iowa CPC Rule 32. These laws explicitly prohibit
what Winthrop did, but in its ruling, the Eighth
Circuit condones more than five years of conflicted
representation, a decision that is contrary to the Iowa
Professional

Conduct

Code

because

Winthrop

represented adverse parties in the same transaction
without

obtaining

informed

consent

from

the

Petitioner.

Courts too have often weighed in on this burden shifting. See
e.g., Westinghouse Electric Corp. v. Kerr-McGee Corp., 580 F.2d
2

1311, 1978 U.S. App. LEXIS 9970, 1978-2 Trade Cas. (CCH)
P62, 169 (7th Cir. Ill. July 25, 1978) ("[Law firm’s] duty to keep
the [clients] advised of actual or potential conflicts of interest,
not the [clients’] burden to divine those conflicts.").

27

d) Not all of the harmful effects of the
conflicted representation can be realized at
the time of the decision.
The Court incorrectly presumes that all the
“harmful

effects”

will

have

occurred

and

be

presentable by the time of final judgment. As an
example, Receivers selected by conflicted counsel, as
in this case, are brought before the lower court,
appointed and authorized under expansive rights
created by same conflicted counsel.

The Receiver

then continues to act long after the final judgment is
entered, the case is closed, and a timely appeal filed.
e) The ruling creates perverse monetary
incentives for attorneys to engage in conflicts
of interest.

From a public policy perspective, allowing law firms
to retain fees earned out of conflicted representation
incentivizes and promotes the very conduct the Model
Rules of Professional Conduct is attempting to
prevent. The Eighth Circuit’s decision, despite its
removal of Winthrop in further representation of
Respondent, permits the retention of its fees.

28

The lower courts ignore how these rulings sanction
the violation of Iowa State law. It allows the products
of Winthrop’s unlawful representation to stand as
well as allowing Winthrop to retain all fees and
earnings, which thereby incentivizes the commission
of unlawful conduct. If the current holding stands,
the odds that “harm” can ever be met for reversal are
slim. And as there is no obligation to disgorge fees,
law firms like Winthrop are incentivized to barge
through obvious conflict of interests and ingratiate
themselves on fees from multiple parties.
f) Harm extends from
society as a whole.

the

Petitioners

to

The Eighth Circuit decision has clearly harmed
Petitioners, but the arms of bad precedents are farreaching. As we have argued above, an extension of
the Eighth Circuit’s decision has deleterious effects
on

attorney-client

privilege,

creates

perverse

incentives for attorneys to take advantage of their
clients, but also creates further confusion as to how
future courts and litigants should deal with civil
conflicts of interests. Without a proper evidentiary
hearing to prove harm or a grant of full remand,
future courts will be forced to speculate as to what

29

potential harm the conflict creates, and to do this
well would require the ability to both see into the
conflicted attorney’s mind and to see into the future
to determine the consequential effects of the conflict
that are yet to happen. Simply put, the Eighth
Circuit standard is impossible to comply with.
By granting cert, the Supreme Court has the
opportunity now to stamp out this bad precedent and
advise on an area of law that is largely barren - what
must courts do procedurally when they discover a
serious attorney conflict of interest in the middle of
ongoing litigation? What is the solution that best
protects the interests of both the litigant and society
as a whole?
B. An appellate court that finds a conflict of

interest by counsel but denies the party
the opportunity to later prove harm
violates the due process clause of the
Fourteenth Amendment.
It is textbook constitutional law that the
Fourteenth Amendment “due process guarantees
require that the courts shall be open to every person
with a right to a remedy for injury to his person,
property, or reputation, with the opportunity for such

30

remedy being granted at a meaningful time and in a
meaningful manner.” 16D C.J.S. Constitutional Law
§ 1912. And the Supreme Court has determined that
court actions may not infringe on an individual’s
right of access to the courts.
Our present concern is solely with the question
whether the plaintiff has been accorded due
process in the primary sense-whether it has
had an opportunity to present its case and be
heard in its support . . . [W]hile it is for the
state courts to determine the adjective as well
as the substantive law of the State, they must,
in so doing, accord the parties due process of
law. Whether acting through its judiciary or
through its legislature, a State may not
deprive a person of all existing remedies for
the enforcement of a right, which the State has
no power to destroy, unless there is, or was,
afforded to him some real opportunity to
protect it.

Brinkerhoff-Faris Tr. & Sav. Co. v. Hill, 281 U.S. 673,
681, 50 S. Ct. 451, 454-455; see also Richards v.

Jefferson Cty., Ala., 517 U.S. 793, 803–04, 116 S. Ct.
1761, 1768–69, 135 L. Ed. 2d 76 (1996).
Accordingly, the Eighth Circuit decision, which
found a conflict of interest but refused to remand to
all

proceedings

or

provide

an

opportunity

for

Petitioners to prove the harm suffered, deprived
Petitioners of their Fourteenth Amendment due
process rights. After the judicial system agreed with

31

Petitioners that there was in fact a serious conflict of
interest, it provided them no opportunity to remedy
the harm at a “meaningful time” or in a “meaningful
manner;” nor does the decision grant Petitioners an
“opportunity to present [their] case and be heard in
its support.” See 16D C.J.S. Constitutional Law §
1912; Brinkerhoff-Faris, 281 U.S. at 681.
As the Eighth Circuit decision violates due
process guarantees, this Court should remand all
proceedings and give Petitioners the opportunity to
be heard on how the conflict of interest harmed
them.

V.

CONCLUSION

By granting cert, the Supreme Court has an
opportunity to correct several errors and provide
clear guidance on important legal issues that lower
courts desperately need. Attorney conflict of interest
as it pertains to civil cases is a largely unestablished
area of law, but this Court can adopt and apply
established principles already set forth in related
criminal law precedents.
Factually, our petition focuses largely on a bad
Circuit decision that found a clear conflict of interest

32

by opposing counsel but still afforded the harmed
party no remedy. But the legal and practical
implications of this decision extend much further
than simply correcting the wrongs of an aggrieved
litigant; this case has widespread implications for
constitutional due process rights and the attorneyclient

relationship.

Moreover,

there

is

much

uncertainty in the lower courts as to how to properly
analyze the harm done by conflicted counsel and
what the proper remedy may be when a conflict is
found.
Petitioner has provided the Court with two
main avenues for granting certiorari and correcting
the Eighth Circuit’s faulty decision: 1) the Court can
determine that a conflict of interest in a civil case is a
structural error worthy of total remand as is already
established in similar criminal cases; and 2) the
Court can find that not allowing a litigant to prove
harm via a hearing when a conflict is found midlitigation is a violation of due process. Petitioner
acknowledges that the two avenues are somewhat
incongruent; there are serious dangers to forcing a
litigant to prove harm done by previous conflicted

33

counsel in a hearing because it opens up the litigant
to divulge sensitive, privileged information and forces
both the litigant and court to speculate as to what the
actual harm was. But at the same time, denying the
litigant

a

hearing

on

the

issue

raises

the

constitutional problem of lack of due process. These
considerations underscore the importance of the
issues. We trust this Court to wisely weigh the
balance between the importance of the right of due
process and the sanctity of the attorney-client
relationship. We proffer, however, that the relief
requested - a total remand of all proceedings while
preserving the court’s finding of a conflict is the best
practical solution.
For all of the reasons stated, we respectfully
request this Court to grant this Petition for a Writ of
Certiorari.
Respectfully submitted,
/S/Jack Duran, Jr.

Jack Duran, Jr.
4010 Foothills Blvd
S-103, #98
Roseville, CA 95747
(916) 779-3316 (Office)
duranlaw@yahoo.com

1(a)

APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
WESTERN DIVISION

CEDAR RAPIDS BANK
AND TRUST COMPANY,

No. C174035-LTS

Plaintiffs
ORDER
AND

vs.

ENTRY OF

MAKO ONE CORPOR
ATION, et al.,

JUDGMENT

Defendants.

I. INTRODUCTION
This case is before me on a motion (Doc. No.
75) for default judgment or, in the alternative,
summary judgment filed by plaintiff Cedar Rapids
Bank and Trust Company (CRBT) on December 11,
2017. Defendants have not filed a resistance. The
resistance was due on or before January 2, 2018.

See Local Rules 1(j) and 56(b) and Fed. R. Civ. P.
6(a). CRBT filed a reply (Doc. No. 78) on

2(a)

January 3, 2018, requesting that its motion be
granted pursuant to Local Rule 56(c). CRBT
requested oral argument, but I find that it is not
necessary.

See L.R. 7(c).
II. PROCEDURAL BACKGROUND

This case involves a default on a bond
transaction that financed the development and
historic renovation of the Badgerow Building in
downtown Sioux City, Iowa. Following the default
on December 12, 2016, CRBT issued a written
notice of default on March 28, 2017. On April 17,
2017, CRBT filed a petition in equity in the Iowa
District Court for Woodbury County. Defendants
removed the case to this court on May 16, 2017,
invoking the

court’s diversity jurisdiction. The

petition includes the following claims:

• Count 1 – Breach of Contract Against
Badgerow under the Bond and Indenture

• Count 2 – Breach of Contract Against
DeBolt under the DeBolt Guaranty

• Count 3 – Breach of Contract Against Mako
under the Mako Guaranty

3(a)

• Count 4 – Foreclosure of the Fee Mortgage
• Count 5 – Foreclosure of the Leasehold
Mortgage

• Count 6 – Appointment of Receiver
• Count 7 – Replevin; Claim of Personal
Property;

and

• Count 8 – Priority of Liens
On October 30, 2017, I issued an order (Doc.
No. 64) granting CRBT’s motion to appoint a
receiver. The Receiver submitted its oath (Doc. No.
65) and bond (Doc. No. 69) shortly thereafter. On
November 2, 2017, I issued an order (Doc. No. 68)
denying defendants’ motion to dismiss for failure to
join a necessary party.
None of the defendants have filed an answer,
which was due November 16, 2017. See Fed. R. Civ.
P. 12(a)(4)(A) (“if the court denies the motion or
postpones its disposition until trial, the responsive
pleading must be served within 14 days after notice
of the court’s action.”). On December 11, 2017,
CRBT filed its motion (Doc. No. 75) for default
judgment

or, in

the

alternative, summary

4(a)

judgment. As mentioned above, defendants have not
filed a resistance and the time for doing so has
passed.
CRBT requests that I grant its motion
pursuant to Local Rule 56(c), which states: “If no
timely

resistance

to

a

motion

for

summary

judgment is filed, the motion may be granted
without prior notice from the court.” However,
before granting such relief I must consider whether
CRBT, as the moving party, has met its burden of
showing that summary judgment is appropriate.

See Maxwell v. Linn County Correctional Center,
310 F. App’x 49, 49–50 (8th Cir. 2009) (citing

Johnson v. Boyd–Richardson Co., 650 F.2d 147, 149
(8th Cir. 1981) (holding that the court has the
“duty to inquire into the merits of [a summary
judgment] motion and to grant or deny it, as the
case may be, in accordance with law and the
relevant facts” when a party fails to comply with
local rules deadlines)); Fed. R. Civ. P. 56(e) (“If a

5(a)

party fails to properly support an assertion of fact
or fails to properly address another party's
assertion of fact as required by Rule 56(c), the
court may ... consider the fact undisputed for
purposes of the motion, ... grant summary
judgment

if

the

materials—including

motion

and

facts

supporting
considered

undisputed—show that the movant is entitled to
relief ... or ... issue any other appropriate order”).

III.
A.

LEGAL STANDARDS

Default Judgment Standards
Federal Rule of Civil Procedure 55
provides, in pertinent part, as
follows:

(a) Entering a Default.
When a party against whom a
judgment
for
affirmative
relief is sought has failed to
plead or otherwise defend,
and that failure is shown by
affidavit or otherwise, the
clerk must enter the party's
default.

(b) Entering a Default Judgment.
By the Clerk. If the
plaintiff’s claim is for a

(1)

6(a)

sum certain or a sum that
can be made certain by
computation, the clerk--on
the plaintiff’s request, with
an affidavit showing the
amount due--must enter
judgment for that amount
and
costs
against
a
defendant who has been
defaulted
for
not
appearing and who is
neither a minor nor an
incompetent person.
By the Court. In all
other cases, the party
must apply to the court for
a default judgment. A
default judgment may be
entered against a minor or
incompetent person only if
represented by a general
guardian, conservator, or
other like fiduciary who
has appeared. If the party
against whom a default
judgment is sought has
appeared personally or by
a
representative,
that
party or its representative
must be served with
written notice of the
application at least 7 days
before the hearing. The
court
may
conduct
hearings
or
make
referrals--preserving any

(2)

7(a)

federal statutory right to a
jury trial--when, to enter
or effectuate judgment, it
needs to:

(A) conduct an accounting;

B.

(B)

determine
damages;

the

amount

of

(C)

establish the truth of any
allegation by evidence; or

(D)

investigate any other matter.
Fed. R. Civ. P. 55(a)-(b).

Summary Judgment Standards
Any party may move for summary judgment

regarding all or any part of the claims asserted in a
case. Fed. R. Civ. P. 56(a). Summary judgment is
appropriate when “the pleadings, depositions,
answers to interrogatories, and admissions on file,
together with affidavits, if any, show that there is
no genuine issue of material fact and that the
moving party is entitled to a judgment as a
matter of law.” Celotex Corp. v. Catrett, 477 U.S.
317, 322 (1986).
A material fact is one that “‘might affect the
outcome of the suit under the governing law.’”

8(a)

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). Thus, “the substantive law will identify
which facts are material.” Id. Facts that are
“critical” under the substantive law are material,
while facts that are “irrelevant or unnecessary” are
not.

Id.
An issue of material fact is genuine if it has a
real basis in the record, Hartnagel

v. Norman, 953 F.2d 394, 395 (8th Cir. 1992)
(citing Matsushita Elec. Indus. Co. v. Zenith

Radio Corp ., 475 U.S. 574, 586–87 (1986)), or
when “‘a reasonable jury could return a verdict for
the nonmoving party’ on the question,” Woods v.

DaimlerChrysler Corp., 409 F.3d 984, 990 (8th
Cir. 2005) (quoting Anderson, 477 U.S. at 248).
Evidence that

only

provides “some metaphysical

doubt as to the material facts,” Matsushita, 475
U.S.

at

colorable”

586,
or

or
“not

evidence

that

significantly

is

“merely

probative,”

Anderson, 477 U.S. at 249–50, does not make an

9(a)

issue of material fact genuine.
As such, a genuine issue of material fact
requires “sufficient evidence supporting the claimed
factual dispute” so as to “require a jury or judge to
resolve the parties' differing versions of the truth at
trial.” Anderson, 477 U.S. at 248–49. Essentially, a
genuine issue of material fact determination, and
thus the availability of summary judgment, is a
determination of “whether a proper jury question
[is] presented.”

Id. at

249. A proper jury question is present if “there is
sufficient evidence favoring the nonmoving party
for a jury to return a verdict for that party.”

Id.

The party moving for entry of summary
judgment

bears

“the

initial

responsibility

of

informing the court of the basis for its motion and
identifying those portions of the record which show
a lack of a genuine issue.” Hartnagel, 953 F.2d at
395 (citing

Celotex, 477 U.S. at 323). Once the

moving party has met this burden, the nonmoving

10(a)

party must go beyond the pleadings and by
depositions,

affidavits,

or otherwise,

designate

specific facts showing that there is a genuine issue
for trial. Mosley v. City of Northwoods, 415 F.3d
910 (8th Cir. 2005). The nonmovant must show an
alleged issue of fact is genuine and material as it
relates to the substantive law. If a party fails to
make a sufficient showing of an essential element of
a claim or defense with respect to which that party
has the burden of proof, then the opposing party is
entitled to judgment as a matter of law. Celotex,
477 U.S. at 322.
In determining if a genuine issue of material fact is
present, I must view the evidence in the light most
favorable to the nonmoving party. Matsushita, 475
U.S. at 587–88. Further, I must give the nonmoving
party the benefit of all reasonable inferences that
can be drawn from the facts.

Id.

However,

“because we view the facts in the light most
favorable to the nonmoving party, we do not weigh

11(a)

the evidence or attempt to determine the credibility
of the witnesses.”

Kammueller v. Loomis, Fargo

& Co., 383 F.3d 779, 784 (8th Cir. 2004). Instead,
“the court's function is to determine whether a
dispute about a material fact is genuine.” Quick

v. Donaldson Co., Inc., 90 F.3d 1372, 1376–77
(8th Cir. 1996).

IV.
A.

ANALYSIS

Undisputed Facts
Due to the lack of a responsive pleading, I

deem all facts contained in CRBT’s statement of
material facts to be undisputed. See Local Rule
56(b); Fed. R. Civ. P. 56(e)(2). Those facts are
summarized as follows:
On August 30, 2013, CRBT and defendants
Badgerow Jackson LLC (Badgerow), Mako One
Corporation (Mako) and Bruce DeBolt (DeBolt)
entered into a Trust Indenture (Doc. No. 4-1)1 to
evidence a bond-financing transaction for the
rehabilitation of the Badgerow building. As part of
this transaction, Badgerow and CRBT executed a

12(a)

Bond (Doc. No. 4-2) in the amount of $6,000,000.
Badgerow’s

obligations

were

secured

with

a

mortgage, assignment of rents, fixture filing and a
security

agreement

pursuant

to

which

Mako

granted CRBT a mortgage lien against and security
interest in all of the fee property (Fee Mortgage),
consisting of a vacant building designed for a
restaurant or retail store on the first floor and a
data center on floors 2 through 12. See Doc. No. 4-3.
If

rehabilitated

in

accordance

with

certain

requirements, the property is expected to generate
significant federal historic rehabilitation tax credits
as well as state tax credits for certified historic
structures. Badgerow’s obligations under the Bond
and Indenture were further secured by a leasehold
mortgage, assignment of rents, fixture filing and
security agreement (Leasehold Mortgage).

See

Doc. No. 4-4. Badgerow assigned CRBT all of its
interest in the leasehold property including all
rights under the Master Lease dated

13(a)

1 These documents are also provided in CRBT’s
Appendix to its motion. See Doc. Nos. 75-4, 75-5 and 756.

March 21, 2012, between Mako (landlord) and
Badgerow (tenant of floors 2 through 12).

See Doc. No. 4-5.
Badgerow then entered into a sublease with
Badgerow Jackson MT, LLC (MT), leasing floors 2
through 12 to MT. To further secure its obligations,
Badgerow executed and delivered to CRBT a pledge
agreement in which Badgerow granted CRBT a
security interest in identified accounts (Accounts
Pledge). See Doc. No. 4-6. Badgerow also executed
and delivered to CRBT a pledge agreement in
which Badgerow and Mako granted CRBT a
security interest in the state tax credits (Tax
Credits Pledge). See Doc. No. 4-7.
Additional security for Badgerow and DeBolt’s
obligations included a pledge agreement in which

14(a)

DeBolt granted CRBT a security interest in, among
other things, his membership units in Badgerow
(Pledge of Badgerow Membership Interests). See
Doc. No. 4-8.

DeBolt and the Arnold Celick, Jr.

and Nancy Dauman Celick Revocable Living Trust
(the Trust) also executed and delivered to CRBT a
stock pledge agreement, pursuant to which DeBolt
and the Trust granted CRBT a security interest in
their stock in Mako (Pledge of Mako Stock).See
Doc.

No.

4-9.

Further

security

included

an

assignment of project agreements, permits and
contracts

(Assignment

of

Project

Agreements),

pursuant to which Badgerow assigned to CRBT all
of its interest in the agreements, contracts and
related documents identified therein. See Doc. No.
4-10. MT also executed and delivered to CRBT an
Assignment of Capital Contributions, pursuant to
which MT assigned to CRBT all of its interest in,
among other things, capital contributions paid and
to be paid by Chevron U.S.A. Inc. (Chevron), the

15(a)

99.99% member of MT under an amended and
restated operating agreement of MT dated May 31,
2012. See Doc. No. 4-11. Mako and DeBolt also
issued guaranties regarding their obligations under
the Bond and Indenture. See Doc. Nos. 4-15 and 416. The Mako Guaranty is secured by the Fee
Mortgage and

fee

property and

the

DeBolt

Guaranty is secured by the Pledge of Badgerow
Membership Interests.
After multiple extensions of the maturity
date, Badgerow, Mako and DeBolt defaulted under
the loan documents by, among other things, failing
to pay all amounts due under the Bond upon the
Bond’s last amended maturity date of December 12,
2016. Pursuant to a cross-default provision, this
failure to make payments (constituting a default
under the Indenture) is also a default under the
Assignment of Contributions, putting MT in default
as well. CRBT issued a written default notice on

16(a)

March 28, 2017, and demanded immediate payment
in full of all amounts due under the Bond. Pursuant
to the terms of the loan documents, interest began
accruing under the Bond at the default rate upon
maturity. As of November 30, 2017, the following
sums (among others) are due and owing to CRBT
by Badgerow, Mako and DeBolt under the Bond:

Principal:
Interest:
Default Interest:
Release Fee:
Winthrop & Weinstine fees
Moore, Heffernan, Moeller,
Johnson, Meis, LLP fees
Protective advances
Total:

$4,227,150.0
$245,081.03
$160,178.35
$130.00
$327,586.47
$24,522,05
$146,283.52
$5,222,936.13

Interest continues to accrue at the contractual rate
of 10 percent, or $1,174.21 per day. CRBT is also
entitled to recover all collection costs associated
with the loan documents, including attorneys’ fees
and costs, which have accrued and will continue to
accrue in connection with the defaults under the

17(a)

loan documents.
Badgerow,

Mako

and

DeBolt

have

had

information of and a reasonable opportunity to pay
the indebtedness under the Bond prior to this
action. The fee and leasehold property are not used
for agricultural purposes as defined in Iowa Code §
535.13, are not the residence of any defendant, are
not a one-family or two-family dwelling occupied
by any defendant and are not the homestead of
any defendant.
Badgerow is in default under the Bond and
Indenture. Based on Badgerow’s default, DeBolt
failed to perform under the DeBolt Guaranty and
Mako failed to perform under the Mako Guaranty.
Both the Fee Mortgage and Leasehold Mortgage
provide that upon a default, CRBT is entitled to
foreclose on the mortgage. The Fee Mortgage,
Leasehold Mortgage, Accounts Pledge, Tax Credits
Pledge, Pledge of Badgerow Membership Interests,
Pledge of Mako Stock, Assignment of Project

18(a)

Agreements and Assignment of Contributions (the
Security Documents) all provide that upon a
default, CRBT is entitled to, among other things,
repossess and foreclose on personal property
constituting part of the property, the accounts, the
tax credits, the Badgerow membership interests,
the Mako stock, the project documents and the MT
capital

contributions

(the

Collateral).

CRBT

requests a money judgment on its breach of
contract claims, attorneys’ fees and costs, a decree
of foreclosure and an order for replevin.

B.

Legal Analysis
1.

Applicable Law

CRBT argues Iowa law applies to this
dispute

because

this

court

sits

in

diversity

jurisdiction and Iowa is the forum state of the
underlying dispute. I agree. See Klaxon Co. v.

Stentor Electric Mfg. Co., 313 U.S. 487, 496-97
(1941). The financial and security documents also
state that Iowa law is the applicable law. See Doc.

19(a)

Nos. 4-1 through 4-23.

2.
CRBT argues

Default Judgment
it is entitled

to

default

judgment due to defendants’ failure to file a timely
answer. Rule 55 provides that when a defendant
fails to “plead or otherwise defend, and that failure
is shown by affidavit or otherwise, the clerk must
enter the party’s default.” Fed. R. Civ. P. 55(a).
Once a defendant’s default has been entered, the
plaintiff may request the entry of judgment by
default. Fed. R. Civ. P. 55(b).
Here,

no

defendant’s

default

has

been

entered. Thus, a request for entry of judgment by
default is premature. Moreover, despite failing to
file a timely answer, defendants have demonstrated
an intent to “otherwise defend” by opposing CRBT’s
motion to appoint receiver. While this does not
excuse their failure to file an answer, I find it more
appropriate to address CRBT’s motion for summary

20(a)

judgment.

1.
a.

Summary Judgment
Breach of Contract Claims

CRBT seeks summary judgment on all
counts. It argues it is entitled to a money judgment
based on the defaults under the terms of the loan
documents. Those defaults, as described above, are
undisputed. As such, CRBT is entitled to summary
judgment

on its breach of contract claims (Counts

1 through 3). To prove a breach of contract, CRBT
must prove: (1) the existence of a contract, (2) the
terms and conditions of the contract, (3) CRBT has
performed all the terms and conditions required
under the contract, (4) the defendants breached the
contract in some way and (5) CRBT has suffered
damages as a result of the defendants’ breach. See

Molo Oil Co. v. River City Ford Truck Sales, Inc.,
578 N.W.2d 222, 224 (Iowa 1998). The breach of
contract claims are based on the Bond and

21(a)

Indenture with Badgerow (Count 1), the DeBolt
Guaranty (Count 2) and Mako Guaranty (Count 3).
CRBT has established each of the above elements
with its unrebutted statement of facts and
s upporting documents for each count. As the nonbreaching party, CRBT is entitled to damages in
the amount that will put it in the position it would
have been in if the contract had not been breached.

See Magnusson Agency v. Pub. Entity Nat. Co.Midwest, 560 N.W.2d 20, 27 (Iowa 1997).
amount is supported by the affidavit

That

of David V.

Castelluccio, Vice President of QCR Holdings, Inc.
(CRBT’s parent and holding

company) and

is

undisputed. It is also consistent with the types of
damages allowed in a breach of contract claim.
find CRBT is entitled to judgment and damages
on its breach of contract claims, which is described
in further detail in the conclusion below.

a.

Attorney Fees

I

22(a)

CRBT also seeks to recover attorney fees and
costs pursuant to the loan documents. Section 8.03
of the Indenture provides that moneys received by
CRBT resulting from the exercise of remedies
following a default shall first be applied to the
payment of fees and expenses of CRBT, including
attorney fees. See Doc. No. 4-1 at 48, 53. The
Mako Guaranty states that Mako agrees to pay
“all reasonable fees and expenses incurred by
[CRBT] in collecting any amount payable under
[the Guaranty] or enforcing or protecting its rights
under the Guaranty in each case whether or not
legal proceedings are commenced.” Doc. No. 4-15
at 3. It specifically states that “[s]uch fees and
expenses include, without limitation, reasonable
fees for attorneys, paralegals and other hired
professionals . . . .” Id. The DeBolt Guaranty
contains the same language. See Doc. No. 4-16 at
3. CRBT argues it has taken appropriate and
reasonable

actions

to

enforce

the

loan

23(a)

documents2 and is entitled to an award of
attorney fees and costs, including attorneys’ fees
and costs incurred after the entry of judgment.
Based on the contractual language described
above, I find that CRBT is entitled to recover its
attorney fees and costs. I further find, based on
CRBT’s supporting materials

2 These actions include the following: filing the
Petition, responding to the Notice of Removal, filing
and preparing for CRBT’s motion for the
appointment of a receiver, addressing the
bankruptcy filings of Mako and Badgerow,
responding to motion for sanctions filed by DeBolt
in the Mako and Badgerow bankruptcy cases,
responding to motions for continuation of the
automatic stay filed by DeBolt in the Mako and
Badgerow bankruptcy cases, responding to requests
for use of cash collateral from Mako and Badgerow
in connection with the bankruptcy cases,
participating in motions to dismiss the Mako and
Badgerow bankruptcy cases, responding to DeBolt’s
motion to disqualify counsel for CRBT, responding
to DeBolt’s motion to dismiss for failure to join a
necessary party and filing this motion.

and defendants’ failure to resist, that the amounts
CRBT requests, as itemized on page 8 of this order,

24(a)

supra, are reasonable and appropriate.

a.

Foreclosure

Next, CRBT argues it is entitled to an order
for a decree of foreclosure. It further contends that
pursuant to Federal Rule of Civil Procedure 57 and
28 U.S.C. § 2201, it is entitled to a determination of
the construction of the contracts and legal relations
between the parties with regard to the loan
documents, liens, collateral, and a declaration of
the rights, status, legal relations, obligations and
remedies of the parties. This would include, but is
not limited to, a judgment finding that CRBT is
entitled to enforce the Fee Mortgage and security
interests in the property and the other collateral
according to the terms thereof and Iowa law. Due to
the undisputed defaults under the loan documents,
CRBT seeks to foreclose the Fee Mortgage and
Leasehold Mortgage by action as provided in Iowa
Code Sections 654.20 through 654.26. The Fee

25(a)

Mortgage states that upon Mako’s failure to
perform under the Mako Guaranty, CRBT is
entitled to take possession of and sell the property
in accordance with applicable Iowa law. See Doc.
No. 4-3 at 28, 30-31. The Leasehold Mortgage
provides the same remedy, among others, for a
default under the Indenture. See Doc. No. 4-4 at 37.
Additionally, the Leasehold Mortgage requires
Badgerow to pay real estate taxes. CRBT states
Badgerow has failed to do this constituting a
default under the Leasehold Mortgage. Id. at 26, 34.
Based upon the defaults, CRBT requests a decree of
foreclosure to foreclose the Fee Mortgage and
Leasehold Mortgage. It also requests a final
determination regarding the validity, extent and
priority of the interests, if any, in the Property and
Collateral, claimed

by defendants pursuant to

Federal Rule of Civil Procedure 57 and 28 U.S.C. §
2201. I find that CRBT is entitled to a foreclosure
decree and final determination under the mortgage

26(a)

documents and pursuant to Iowa Code §§ 654.2026. Such decree and final determination will be set
forth in the conclusion of this order.

a.

Commission of United States
Marshal

With regard to any commission due to the sale of the
property under 28 U.S.C. § 1921, CRBT argues that
the United States Marshal is not entitled to a
commission because a “seizure or levy” is not required
for a judicial foreclosure sale. See James T. Barnes &

Co. v. United States, 593 F.2d 352, 353 (8th Cir. 1979)
(citing in agreement Travelers Ins. Co. v. Lawrence,
509 F.2d 83, 90 (9th Cir. 1974)). It further argues that
prior to an amendment in 1962, the Marshal would
have been entitled to the same fee that a county
sheriff would have been entitled had the sheriff
conducted the sale. See Travelers Ins. Co., 509 F.2d at
90. It contends this is the more reasonable position

and

requests

that

I

commission accordingly.

limit

the

Marshal’s

27(a)

The relevant section of 28 U.S.C. § 1921
provides as follows:
The United States Marshals Service
shall collect a commission of 3 percent
of the first $1,000 collected and 1 ½
percent on the excess of any sum over
$1,000, for seizing or levying on
property
(including
seizures
in
admiralty), disposing of such property
by sale, setoff, or otherwise, and
receiving and paying over money,
except that the amount of commission
shall be within the range set by the
Attorney General. [I]f the property is
not disposed of by marshal's sale, the
commission shall be in such amount,
within the range set by the Attorney
General, as may be allowed by the
court. In any case in which the
vessel or other property is sold by a
public auctioneer, or by some party
other than a marshal or deputy
marshal, the commission authorized
under this subsection shall be reduced
by the amount paid to such auctioneer
or other party. This subsection applies
to any judicially ordered sale or
execution sale, without regard to
whether the judicial order of sale
constitutes a seizure or levy within the
meaning of State law. This subsection
shall not apply to any seizure,
forfeiture, sale, or other disposition of
property pursuant to the applicable
provisions of law amended by the
Comprehensive Forfeiture Act of 1984
(98 Stat. 2040).
28 U.S.C.A. § 1921(c)(1). The statute outlines three

28(a)

actions that must occur for the Marshal to be
entitled to the statutory commission: (1) seizing or
levying on property,
(2) disposing of such property by sale, setoff, or
otherwise and (3) receiving and paying over money.

Id. Because the Eighth Circuit has held that “a
seizure or levy is not required for a judicial
foreclosure sale of property,” the first requirement
is not met. I agree with CRBT that the fee a county
sheriff would ordinarily be entitled to receive in
conducting a foreclosure sale is a reasonable fee
and that the Marshal is entitled to such a fee
here.

b.

Replevin

Finally, CRBT seeks an order for replevin. As
mentioned above, the Security Documents all
provide that upon a default, CRBT is entitled to,
among other things, repossess and foreclose on the
Collateral. It is undisputed that defaults

under

29(a)

the Security Documents have occurred. Pursuant to
Iowa Code Chapter 643, Iowa Code § 554.9102 et

seq., the Loan Documents and other applicable law,
CRBT is entitled to an order for claim and delivery
of the Collateral.

V.

CONCLUSION

For the reasons stated herein, CRBT’s
motion (Doc. No. 75) for summary judgment is
hereby granted as follows:3

Money Judgment

1. A money judgment shall be, and is hereby,
entered in favor of CRBT and against
Badgerow, Mako, and DeBolt, jointly and
severally, in the amount of $5,222,936.13
(the

Judgment).

Interest

and

default

interest shall continue to accrue on the
Judgment from and after December 1,

30(a)

2017,

at

the

$1,174.21,

current

until

the

daily
date

rate
that

of
the

Judgment is entered, after which,

3

CRBT’s request for default judgment, which was
included as an alternative basis for relief in the
same motion, is denied as moot.

interest

shall

accrue

in

accordance

with

applicable law. Judgment may be enforced as
provided by Iowa law.
Foreclosure of the Fee Mortgage

2. CRBT

shall

awarded,

have,
the

and

usual

is

hereby

decree

of

foreclosure with respect to the Fee
Mortgage.

3. The Fee Mortgage secures the debt
represented by the Judgment and
creates, imposes, and constitutes a
mortgage lien upon the Fee Property,
of which the real property is legally

31(a)

described as:
Port of Block 23, Sioux City East Addition,
in the County of Woodbury and State of
Iowa, described as follows: Beginning at
the Northeast corner of Block 23, Sioux
City East Addition. County of Woodbury.
State of Iowa: thence South 89 degrees 51
minutes 52 seconds West along the North
line or said Block 23 for a distance of
64.17 feet thence; South 0 degrees 0
minutes 11 seconds

West

for

105.41

feet; thence South 89 degrees 44 minutes
11 seconds

West for

8.80 feet; thence

South 0 degrees 14 minutes 13 seconds
West for 2.10 feet; thence South

89

degrees 45 minutes 47 seconds East for
5.10 feet; thence South 0 degrees 14
minutes 13 seconds West for 43.50 feet;
thence North 89 degrees 59 minutes 23
seconds East for 68.12 feet to a point on

32(a)

the East line of said Block 23; thence due
North along the the East line of Block
East line of said Block 23 for 151.21 feet
to the point of beginning.
Note: It is assumed in the foregoing
legal

description

that

23

bears due North.

4. The mortgage lien represented by the
Fee Mortgage is senior to any right,
title, and interest of the Defendants
and the rights of redemption of said
Defendants and each of them, if any,
shall be forever barred and
foreclosed.

5. Upon CRBT’s application, the United
States Marshal, the Sheriff of
Woodbury County, Iowa, or any other
entity duly authorized by law (the
Seller), shall sell the Fee Property, or
any portion thereof, as designated by

33(a)

CRBT, pursuant to the Fee Mortgage,
upon notice, and in the manner
prescribed by

law.

6. CRBT may purchase the Fee Property,
or any portion thereof, at a sale
pursuant to the Fee Mortgage and/or
by credit bidding all or any portion of
the amount secured by the Fee
Mortgage (the Fee Mortgage Debt),
and in such case, the statement of
such fact in the report of sale shall
have the same effect as a receipt for
money paid upon a sale for cash, and
shall reduce the amount of the
Judgment and the amount of the Fee
Mortgage Debt.

7. The

Defendants

are

barred

and

foreclosed from asserting right, title
or interest in the Fee Property.

8. CRBT shall state at the time of the

34(a)

foreclosure

sale

whether

the

foreclosure of the Fee Mortgage is
subject to the Master Lease and/or
the Sublease. That fact shall then be
included

on

the

deed.

If

the

foreclosure sale is not subject to the
Master Lease and/or the Sublease,
the

Master

Lease

and/or

the

Sublease shall be extinguished. If the
foreclosure sale is subject to the
Master Lease and/or the Sublease,
the

Master

Lease

and/or

the

Sublease shall remain as interests in
the Fee Property.

9. Issuance of special execution for the
foreclosure sale of the Fee Property,
or any portion thereof, shall occur at
such time as determined by CRBT
and in CRBT’s discretion.

10. There shall be no redemption period

35(a)

after such sale, and none of the
Defendants shall have any right to
redeem

after

sale,

and

provisions of Iowa Code

the

§654.23

shall apply to the sale.

11. The Seller shall without delay

issue

and deliver a deed to the purchaser
under

the

whereupon

foreclosure
the

rights,

sale,
titles,

interests, liens, claims, and
easements,

of

each

Defendant

shall

be

foreclosed,
barred,

voided,
and

and

every

extinguished,
and

forever

whereupon

the

purchaser shall have clear title to
the Fee Property or whatever portion
thereof was sold.

12. The purchaser at the sale shall be
entitled to immediate possession of
the Fee Property, that was sold, and
if necessary
a

Writ

of

appropriate

Possession
order

or

shall

other
issue

36(a)

commanding it to put the purchaser
under

the

foreclosure

sale

in

possession thereof.

13. The

United

commission

States

Marshal’s

shall not exceed the

commission to which the Sheriff of
Woodbury County, Iowa would

be

entitled to under applicable
Iowa law.
Foreclosure of the Leasehold Mortgage

14. CRBT

shall

awarded,
foreclosure

have,
the
with

and

usual

is

hereby

decree

respect

to

of
the

Leasehold Mortgage.

15. The Leasehold Mortgage secures the
debt represented by the Judgment
and creates, imposes, and constitutes
a mortgage lien upon the Leasehold
Property, of which the real property
is legally described as:
Port of Block 23, Sioux City East Addition, in
the County of Woodbury and State of Iowa,
described

as

follows:

Beginning

at

the

Northeast corner of Block 23, Sioux City East

37(a)

Addition. County of Woodbury. State of Iowa:
thence South 89 degrees 51 minutes

52

seconds West along the North line or said
Block 23 for a distance of 64.17 feet thence;
South 0 degrees 0 minutes 11 seconds West
for 105.41 feet; thence South 89 degrees 44
minutes 11

seconds West for 8.80 feet;

thence South 0 degrees 14 minutes 13 seconds
West for 2.10 feet; thence South 89 degrees 45
minutes 47 seconds East for 5.10 feet; thence
South 0
degrees 14 minutes 13 seconds West
for 43.50 feet; thence North 89 degrees
59 minutes 23 seconds East for 68.12
feet to a point on the East line of said
Block 23; thence due North along the
East line of said Block 23 for 151.21
feet to the point of beginning.
Note:

It

is

assumed

in

the

foregoing legal description

38(a)

that the East line of Block
23 bears due North.

16. The mortgage lien represented by the
Leasehold Mortgage is senior to any
right,

title,

Defendants

and

interest

and

the

of

rights

the
of

redemption of said Defendants and
each of them, if any, shall be forever
barred and

foreclosed.

17. Upon CRBT’s application, the United
States

Marshal,

the

Sheriff

of

Woodbury County, Iowa, or any other
entity duly authorized by law (the
Seller),

shall

sell

the

Leasehold

Property, or any portion thereof, as
designated by CRBT, pursuant to the
Leasehold Mortgage, upon

notice,

and in the manner prescribed by law.

18. CRBT may purchase the Leasehold
Property, or any portion thereof, at a

39(a)

sale

pursuant

to

the

Leasehold

Mortgage and/or by credit bidding all
or any portion of the amount secured
by

the

Leasehold

Mortgage

(the

Leasehold Mortgage Debt), and in
such case, the statement of such fact
in the report of sale shall have the
same effect as a receipt for money
paid upon a sale for cash, and shall
reduce the amount of the Judgment
and the amount of the Leasehold
Mortgage Debt.

19. The

Defendants

are

barred

and

foreclosed from asserting right, title
or interest in the Leasehold Property
that is sold.

20. CRBT shall state at the time of the
foreclosure

sale

foreclosure

of

whether
the

the

Leasehold

Mortgage is subject to the Master

40(a)

Lease and/or the Sublease. That fact
shall then be included on the deed. If
the foreclosure sale is not subject to
the

Master

Lease

and/or

the

Sublease, the Master Lease and/or
the Sublease shall be extinguished. If
the foreclosure sale is subject to the
Master Lease and/or the Sublease,
the Master Lease and/or the Sublease
shall remain as interests in the
Leasehold Property.

21. Issuance of special execution for the
foreclosure sale of the Leasehold
Property, or whatever portion thereof
is sold, shall occur at such time as
determined by CRBT and in CRBT’s
discretion.

22. There shall be no redemption period
after such sale, and none of the
Defendants shall have any right to

41(a)

redeem after sale, and the provisions
of Iowa Code section 654.23 shall
apply to the sale.

23. The Seller shall without delay issue and
deliver a deed to the purchaser under
the foreclosure sale, whereupon the
rights, titles, interests, liens, claims,
and easements, of each and every
Defendant

shall

foreclosed,

voided,

barred,

and

be

extinguished,
and

forever

whereupon

the

purchaser shall have clear title to the
Leasehold

Property

or

whatever

portion thereof was sold.

24. The purchaser at the sale shall be
entitled to immediate possession of
the Leasehold Property that

was

sold, and if necessary a Writ of
Possession or other appropriate order
shall issue commanding it to put the

42(a)

purchaser under the foreclosure sale
in possession thereof.

25. The

United

States

Marshal’s

commission shall not exceed the
commission to which the Sheriff of
Woodbury County, Iowa would be
entitled to under applicable Iowa
law.
Replevin (Claim and Delivery)

26. Upon

CRBT’s

request,

Badgerow

shall:

surrender

and

(a)
deliver

Mako

and

immediately
to

CRBT

possession, custody and control of all
of the Collateral, including without
limitation all inventory, cash, chattel
paper, accounts, furniture, fixtures,
equipment, and general intangibles
together with all proceeds of the
same; (b) deliver to CRBT originals or
true and correct copies of all books,

43(a)

records,

documents

or

materials

relating in any manner whatsoever to
the Personal Property; (c) generally
provide

immediate

and

full

cooperation and assistance to CRBT,
including the prompt answering of
verbal and written questions directed
from CRBT so as to enable CRBT to
identify, gather and liquidate the
Collateral

and

proceeds

of

the

Collateral; and (d) advise CRBT and
the

United

States

Marshal,

the

Sheriff of any county in which any of
the Collateral or its proceeds may be
found, or any entity duly authorized
by law (the “Replevin Agent”) of the
exact whereabouts of the Collateral.

27. Mako and Badgerow shall not damage,
secrete, use, sell, lease, transfer,
assign, convey, or encumber any of the
Collateral.

44(a)

28. Upon CRBT’s request, the Replevin
Agent shall seize and without delay
deliver to CRBT any of the Collateral
or its proceeds found in said county.

29. If the Collateral or any of it or its
proceeds is concealed in a building or
elsewhere, and a public demand for
its delivery is made by the Replevin
Agent is refused or there is no
response, the Replevin Agent shall
cause the building or enclosure to be
broken open and shall take the
Collateral or any of it or its proceeds
therefrom.

30. CRBT and its agents are authorized to
accompany

the

Replevin

Agent

for

purposes of locating, identifying, and
arranging

for

the

delivery

of

the

Collateral.

31. After recovering the Collateral, CRBT is
authorized to sell or otherwise dispose of

45(a)

some or all of the Collateral
accordance
Chapter

with
643,

under
Iowa

Iowa

Code

in
Code

Section

554.9102 et seq., or other applicable law.
If the Collateral, or any portion thereof,
is sold by public sale, publishing notice of
such sale once a week for four weeks in a
local

newspaper

shall

be

deemed

commercially reasonable.

32. CRBT may, at CRBT’s discretion, direct
the Replevin Agent not to seize or
deliver to CRBT any particular item
of

Collateral,

including

without

limitation any item of Collateral that
may be hazardous waste.

33. CRBT may, at its option and as an
alternative

to

removing

the

Collateral, inventory the Collateral
and store

the

Collateral at the

premises on which the Collateral was
found or any other location and

46(a)

arrange for a liquidation or sale of
the Collateral on such premises or
other

location

under

Iowa

Code

Chapter 643 and Iowa Code Section
554.9102 et seq. CRBT and the
Replevin Agent are authorized to
remain in possession of and shall
have access to said premises or other
location until
liquidation

such

of

the

time

as the

Collateral

is

complete.
Related Orders

34. CRBT shall be entitled, at any time,
both before and after the foreclosure
sale contemplated by this Order, to
petition the Court to add to the
Judgment, the Fee Mortgage Debt,
and the Leasehold Mortgage Debt all
costs

and

expenses

that

are

47(a)

recoverable
Documents,

under

the

including

Loan
without

limitation, all court costs, expenses,
including without limitation, all costs
and expenses incurred in improving
or maintaining the Property or the
Collateral or preventing waste to the
Property or the Collateral, and all
fees,

including

attorneys’

fees,

incurred by CRBT. Such amounts, if
incurred before the foreclosure sale,
may

be

included

in

any

bids

submitted by CRBT in connection
with the foreclosure sale.

35. This Order does not purport to set forth
an

exhaustive

list

of

CRBT’s

collateral, nor is this Order intended
to limit the cumulative rights and
remedies available to CRBT under
applicable law, all of which rights

48(a)

and remedies are preserved and may
be exercised as appropriate, with or
without further order of this Court.

36. CRBT may seek attorneys’ fees and
costs to be added to the Fee Mortgage
Debt and the Leasehold Mortgage
Debt by submitting an affidavit from
CRBT or CRBT’s counsel identifying
such fees and costs. In addition,
CRBT may seek to add additional
interest

to

the

Judgment

or

submitting an affidavit from CRBT
stating the additional interest to be
added.

37. Nothing in this Order, or the entry
hereof or the entry of the Judgment,
shall cause the lien of the Fee
Mortgage, the Leasehold Mortgage,
the

Security

Documents or

the

terms, rights, and remedies of any

49(a)

of the other Loan Documents to
merge

with

this

Order

or

the

Judgment, or in any manner to
otherwise impair the security or
priority of CRBT’s mortgage lien, the
security interests, or CRBT’s rights
and

remedies

under

the

Loan

Documents and applicable law. To
the contrary, all such liens, security
interests, terms, rights, and remedies
are expressly preserved for CRBT’s
benefit.

38. CRBT may add parties to this action, both
before and after entry of Judgment, as
needed to extinguish any interests held
by third parties in the Property or
Collateral or any portion thereof.

the

50(a)

IT IS SO ORDERED.

DATED this 11th day of January, 2018.

_______
Leonard T.
Strand, Chief
Judge

51(a)

APPENDIX B

United States Court of
Appeals
For the Eighth
Circuit
No. 18-1298

Cedar Rapids
Bank and
Trust
Company

Plaintiff - Appellee
v.
Mako One
Corporation, et
al.

Defendant - Appellant
Appeal from United States District Court for the
Northern District of Iowa

Submitted:
November 13,

52(a)

2018
Filed: March
21, 2019
Before BENTON, BEAM, and ERICKSON,
Circuit Judges.

ERICKSON, Circuit Judge.
In August 2013, Mako One Corporation (“Mako”)
acquired the historic Badgerow Jackson Building in
downtown Sioux City, Iowa, intending to restore it
using state and federal historic tax credits. To help
finance the $17 million restoration project, Mako
prepared a tax credit bond offering of $6 million.
Mako retained the law firm of Winthrop &
Weinstine (“Winthrop”) to draft the tax credit bond.
Nine months later, Cedar Rapids Bank and Trust
Company (“CRBT”) retained Winthrop to represent
it in connection with the Badgerow building tax
credit project. In April 2017, after Mako and

53(a)

Badgerow failed to make any payments on the
lease, CRBT, through counsel Winthrop, sought to
foreclose on the Badgerow Building. Mako retained
separate counsel and moved to dismiss for failure to
join a necessary party and to disqualify Winthrop as
CRBT’s counsel. The district court denied both
motions and awarded a judgment of $5.2 million in
favor of CRBT. Mako appeals the denial of its
motions, and additionally appeals the validity of the
final judgment. We affirm in part, and reverse in
part.

I.

Background
In August 2013, Mako acquired the historic

Badgerow Jackson Building in downtown Sioux
City, Iowa. To help finance the $17 million
restoration project, Mako, Badgerow, and Bruce
DeBolt (president of Mako) prepared a tax credit
bond offering of $6 million, to be repaid within one
year, which CRBT purchased in entirety. To secure
the bond, Mako and Badgerow executed and

54(a)

delivered to CRBT mortgages on the building. Mako
leased the building to Badgerow, which subleased it
to co-defendant Badgerow Jackson MT, LLC (“MT”),
of which Chevron USA, Inc. (“Chevron”) owns
99.99%. Pursuant to an agreement between the two
Badgerow companies, Chevron promised, upon
satisfaction of certain conditions, to make capital
contributions to MT for payment of the lease in
exchange for any federal tax credits generated by
the property.
When Mako first became interested in purchasing
the property in November 2011, it retained the law
firm of Winthrop & Weinstine. Winthrop attorney
Jon Peterson provided legal services to Mako from
November 2011 to May 2012 “in connection with
[the] Badgerow Building tax credit project.” Nine
months later, in February 2013, CRBT sought to
retain Winthrop to represent it in connection with
the Badgerow building tax credit project. While
foreseeing no conflict, Winthrop, exercising “an

55(a)

abundance of caution,” prepared a conflicts waiver
letter for CRBT and Mako.
Addressed to both parties, the letter began by noting
that “the interests of [CRBT] and Mako One are or
may be adverse” with regard to the Badgerow tax
credit project. Winthrop then requested consent from
both parties with regard to current and future
representation of CRBT and Mako One “on matters
unrelated to the Transaction” and to Winthrop’s
“representation of the bank in connection with the
Transaction.” In accordance with the rules of
professional responsibility, the letter then assured
both parties that Winthrop “will not use confidential
client information to either client’s disadvantage”
and “will be able to fully and properly represent
[CRBT] and Mako One on their separate matters
without representation of either client being affected
by [Winthrop’s] representation of the other client.”
The letter then requested that Mako agree to
Winthrop’s representation of CRBT in the
transaction and unrelated matters, and promised
that “[Mako] will not use the fact of our
representation of the Bank as a basis to claim a
conflict of interest on the part of [Winthrop], or to
seek disqualification of the Firm, in any matter in
which [Winthrop] represent[s] the Bank or may
represent Mako One, other than the Transaction . . .
.” (emphasis added). The letter similarly requested
that CRBT agree to Winthrop’s “representation of
Mako One now or in the future in matters unrelated
to the Transaction,” and that CRBT would “not use
the fact of our representation of Mako One as a basis
to claim a conflict of interest on the part of
[Winthrop], or to seek disqualification of the Firm, in
any matter in which [Winthrop] represent[s] the Bank
or may represent the Bank, including the
Transaction . . . .” (emphasis added). Finally, the
letter states that “[i]n the event that contentious

56(a)

disputes or litigation arise regarding the Transaction
or if the Firm determines that continued
representation may violate applicable Rules of
Professional Conduct, the Firm will withdraw from
representation of Mako One or the Bank.”1 The
letter was then signed by DeBolt on behalf of Mako
One and Gary Becker on behalf of CRBT.
Winthrop

represented

CRBT

for

the

remainder of the transaction, and Mako One
retained

the

Heidman

Law

Firm. After

the

transaction closed in 2013, the parties negotiated
and amended the bond maturity date six times,
ultimately extending it to December 2016. Winthrop
represented CRBT in all of these subsequent
amendments, and Mako was represented by Kutak
Rock LLP.
In April 2017, after Mako and Badgerow
failed to make any payments on the lease, CRBT
sought to foreclose on the Badgerow Building without
redemption in the Iowa state courts. Mako removed
the case to the Northern District of Iowa. After suit

57(a)

was filed, DeBolt wrote to Winthrop:
I believe Norm [Jones] has serious
conflict issues at this point in time as
the firm is required to withdraw from
representing the bank. I agreed to his
representation of the bank for only so
long as there was no adversarial
conflict between Badgerow’s interests
and the bank’s interests. As that
conflict has now occurred I believe
Norm,
and
the
firm,
should
immediately withdraw entirely from
the matter. Norm’s actions have
already damaged our legal position.
The firm may be responsible for losses
that are incurred as a result.
Winthrop partner Norman Jones responded:
On your statement about legal conflict,
please review with counsel the conflict
waiver letter that Mako One signed as a
former client of the firm in early 2013.
The letter requires us to withdraw from
representing both the bank and Mako
One in the case of a contentious dispute.
Winthrop’s

1The original draft sent to Mako stated that
Winthrop “may withdraw from the representation of
Mako One or the Bank,” however Mako demanded
that “may” be changed to “will.”

last work for Mako One was approximately 5

58(a)

years ago and it is not a current client.
Mako claims that this was the first time Winthrop
claimed the firm no longer represented Mako.
During the foreclosure proceeding, CRBT
moved to have a receiver appointed. The motion was
set for hearing on June 21, 2017. The day before the
hearing, Mako

and

Badgerow

both

filed

for

bankruptcy in California. As a result, the district
court

cancelled

the

hearing

and

stayed

the

foreclosure action. The bankruptcy proceeding was
ultimately dismissed in November 2017 for failure
to prosecute.
The court then held evidentiary hearings and
oral arguments on three motions: CRBT’s motion to
appoint a receiver; Mako’s motion to dismiss for
failure to join Chevron as a necessary party; and
Mako’s

non-dispositive

motion

to

disqualify

Winthrop as CRBT’s counsel (“November motions”).
At the evidentiary hearing, Mako made an oral
motion to exclude the testimony of Winthrop

59(a)

partner Norman Jones, who did not serve as an
advocate during the hearing. During oral argument,
Mako represented that it could produce legal
authority that the case should be dismissed with
prejudice due to Winthrop’s conflict of interest. The
district court reserved decision on defendant’s
motions until receipt of the promised legal authority.
While awaiting the supplemental filing, the district
court granted CRBT’s motion to appoint a receiver.
Counsel for Mako filed a supplemental list of
authorities, which the district court concluded were
inapposite. The district court denied

all three of

Mako’s motions in a written order.
In December 2017, CRBT filed a motion for default
judgment or, in the alternative, summary judgment.
Mako did not oppose the motion, and the court
entered judgment in favor of CRBT, including a
money judgment of $5.2 million. Mako then filed a
motion to set aside judgment pursuant to Federal
Rule of Civil Procedure 60(b) and to stay the case,

60(a)

presenting

the

court

with

various

assertions

regarding CRBT’s receipt of state and federal tax

credits from construction on the Badgerow Jackson
Building. The district court found Mako’s assertions
internally contradictory and unsupported by evidence,
and denied Mako’s motion.
Mako now appeals the denial of the November
motions, and additionally argues that the district court
erred (1) in proceeding to the merits before deciding the
disqualification motion, and (2) in closing the case
while the receiver’s obligations are ongoing. The latter
argument was not raised below and we will not
ordinarily consider an argument raised for the first time
on appeal. Gap, Inc. v. GK Development, Inc., 843
F.3d 744, 748 (8th Cir. 2016) (quoting United States v.
Hirani, 824 F.3d 741, 751 (8th Cir. 2016)). We have set
forth limited exceptions to our general rule. We have
exercised discretion to consider an issue raised on
appeal for the first time when “the proper resolution is
beyond any doubt . . . or when the argument involves a

61(a)

purely legal issue in which no additional evidence or
argument would affect the outcome of the case.” Id. at
748-49 (quoting Weitz Co. v. Lloyd’s of London, 574
F.3d 885, 891 (8th Cir. 2009)). Mako has set forth no
legal authority for its assertion that the district court
acted improperly in closing the case. We find the claim
without merit.

II.

Discussion

A. Motion to Dismiss for Failure to Join a
Necessary Party
“We review de novo conclusions of law underlying a
district court’s Rule 19(a) determination.” Two
Shields v. Wilkinson, 790 F.3d 791, 794-95 (8th Cir.
2015) (citing Gwartz v. Jefferson Mem’l Hosp. Ass’n,
23 F.3d 1426, 1428 (8th Cir. 1994)). Mako argues that
the district court erred in denying its motion to
dismiss the action for failure to join Chevron as a
necessary party pursuant to Federal Rule of Civil
Procedure 19(a)(1). Mako claims that Chevron is a
necessary party because

the judgment impairs

62(a)

Chevron’s ability to protect its interest in the
Badgerow Jackson Building federal tax credits.
Mako cites only the rule in support of this claim.
Rule 19(a)(1) states:

(1) Required Party. A person who is
subject to service of process and whose
joinder will not deprive the court of
subject-matter jurisdiction must be
joined as a party if:

(A) in that person’s absence, the
court cannot accord complete
relief among existing parties; or

(B) that

person

claims

an

interest relating to the subject of
the action and is so situated that
disposing of the action in the
person’s absence may:

(i) as a practical matter
impair or impede the
person’s ability to protect
the interest; or

(ii) leave
party

an
subject

substantial
incurring
multiple,

existing
to
a

risk
of
double,
or

otherwise

63(a)

inconsistent
obligations
because of the interest.
Fed. R. Civ. P. 19(a)(1).
Mako has raised a number of issues that are
unsupported in the record and will not be considered.
Mako’s claims that Chevron purchased Mako’s
contractual rights to $3.2 million in tax credits
(which it asserts exposes it to potential but unasserted claims) and Mako’s claims related to a
“Super Non-Disturbance Agreement” are simply
inadequately developed in this record to provide
any ground for relief.
Even if Mako’s claims related to Chevron’s
contractual rights were somehow implicated, it
would not make Chevron a necessary party. As the
district court correctly pointed out, “[t]he focus [of
Rule 19(a)(1)] is on relief between the parties and
not

on

the

speculative

possibility

of

further

litigation between a party and an absent person.”
LLC Corp. v. Pension Ben. Guar. Corp., 703 F.2d

64(a)

301, 305 (8th Cir. 1983) (citing Morgan Guaranty
Trust Co. v. Martin, 466 F.2d 593, 598-99 (7th Cir.
1972)); see also Helzberg’s Diamond Shops, Inc. v.
Valley W. Des Moines Shopping Ctr., Inc., 564 F.2d
816, 820 (8th Cir. 1977) (citation omitted) (“[A]
person does not become indispensable to an action
to determine rights under a contract simply because
that person’s rights or obligations under an entirely
separate contract will be affected by the result of the
action.”). The district court was able to accord
complete relief among existing parties.

B. Damages Award
Mako challenges the damages award in this
case. “In a bench trial, ascertaining the plaintiff’s
damages is a form of fact-finding that can be set
aside only if clearly erroneous.”

Hall v. Gus

Construction Co., Inc., 842 F.2d 1010, 1017 (8th Cir.
1988) (citing Webb v. Arresting Officers, 749 F.2d
500, 501-02 (8th Cir. 1984)). We reverse such
findings “only in those rare situations where we are

65(a)

pressed to conclude that there is plain injustice or a
monstrous
quotation

or

shocking

marks

result.”

omitted) (quoting

Id.

(internal

Occhino v.

United States, 686 F.2d 1302, 1305 (8th Cir. 1982)).
In other words, it must “strike us as wrong with the
force of a five-week-old, unrefrigerated dead fish.”
Kaplan v. Mayo Clinic, 847 F.3d 988, 992 (8th Cir.
2017) (quoting In re Nevel Props. Corp., 765 F.3d
846, 850 (8th Cir. 2014)).
In its Rule 60(b) motion requesting relief from the
judgment, Mako asserted that CRBT had received
over $5 million in state and federal tax credits. The
district court found this assertion to be unsupported
in the record and denied the motion. Mako now
argues that the district court erred in calculating
the money judgment without factoring in CRBT’s
received tax credits. Here on appeal Mako once
again fails to point to any evidence in the record
supporting this claim. The district court properly
concluded that no evidence in the record supports

66(a)

this claim.

A. Motion to Disqualify Counsel
“We review the grant of a motion to disqualify
a lawyer as trial counsel for an abuse of discretion,
but because the potential for abuse by opposing
counsel is high, the Court subjects such motions to
particularly strict scrutiny.” Zerger & Mauer LLP v.
City of Greenwood, 751 F.3d 928, 931 (8th Cir.
2014) (quoting Droste v. Julien, 477 F.3d 1030, 1035
(8th Cir. 2007)).
The Northern District of Iowa applies the
Iowa Rules of Professional Conduct to members of
the District Court’s bar. See Northern District of
Iowa Local Rule 83(f)(1) (2018). These rules apply to
conflicts of interest involving former clients. See
Iowa Rules of Professional Conduct 32:1.9 (2012).
The parties have spilled much ink in the briefing
arguing whether CRBT is a current client of the
Winthrop firm. We need not resolve the question as
it is undoubtedly true that Mako is a former client

67(a)

to whom the Winthrop firm owed a duty to avoid
conflicts. Rule 32:1.9(a) states:
A lawyer who has formerly represented
a client in a matter shall not thereafter
represent another person in the same or
a substantially related matter in which
that person’s interests are materially
adverse to the interests of the former
client unless the former client gives
informed
consent,
confirmed
in
writing.
Iowa R. Prof. Conduct 32:1.9 (2012). There is
no question that, in representing CRBT in the
purchasing of the very bond it had drafted for Mako
in 2012, Winthrop undertook to represent another
person in a matter “substantially related” to the
matter of the Mako representation. See id. cmt. 3
(“Matters are ‘substantially related’ for purposes of
this rule if they involve the same transaction.”).
Under Rule 32:1.9, a conflict can be waived
only if the former client consents in writing after
being fully informed. Under Iowa law informed
consent “denotes the agreement by a person to a
proposed course of conduct after the lawyer has

68(a)

communicated
explanation

adequate

information

about the material

risks of

and
and

reasonably available alternatives to the proposed
course of conduct.” Iowa R. Prof. Conduct 32:1.0
(2012). The drafter’s comment on this section
elaborates on informed consent:
Ordinarily, [informed consent] will
require communication that includes a
disclosure
of
the
facts
and
circumstances giving rise to the
situation, any explanation reasonably
necessary to inform the client or other
person of the material advantages and
disadvantages of the proposed course
of conduct, and a discussion of the
client’s or other person’s options and
alternatives. . . . [A] lawyer who does
not personally inform the client or other
person [of facts or implications]
assumes the risk that the client or
other person is inadequately informed
and the consent is invalid.
Id. cmt. 6 (alterations added).
Winthrop’s consent waiver letter is inadequate to
meet the requirements of this rule. It makes no
attempt to explain to

Mako the advantages,

disadvantages, risks or benefits that Mako would

69(a)

confront by allowing Winthrop to represent CRBT.
Indeed, the letter makes no pretense to elucidate
any risk involved, stating only that “the interests of
the Bank and Mako One are or may be adverse.” This
representation

hangs

in

the

air unexplained,

allowing the reader to pour into it any content he
might deem to. Even more troubling, the third
paragraph asks Mako to agree that it will not claim a
conflict of interest or seek disqualification against
Winthrop in any matter other than the transaction.
This would seem to resolve the conflict question in
its entirety, as Mako has timely claimed a conflict
in this transaction. Winthrop claims that this
“drafting error” was understood to mean something
different by Mako. This assertion, too, flutters in
the air unsupported and is belied by the record. The
record does not contain evidence sufficient to
establish a mutual mistake, or any other legal basis
for reformation of the language. But in the end, the
problem the Winthrop firm confronts is that no

70(a)

informed consent was ever obtained from Mako.
Mako was never informed that its counsel would
represent CRBT in a suit related to the very same
bonds that it drafted on Mako’s behalf. Winthrop
did not inform Mako that it was remotely possible
that Winthrop would go so far as to call one of its
own partners to testify against Mako in an action
related to its representation of Mako. Under these
circumstances, we conclude that informed consent
was not obtained and Mako did not validly waive
the conflict of interest.
Mako next argues that the district court erred
in proceeding to the merits before deciding the
disqualification motion. However, this is a mischaracterization of the procedural history. The
district court made only one ruling while awaiting
Mako’s production of legal authority supporting
disqualification of counsel, and that was to approve
CRBT’s request to appoint a receiver. This was not
a ruling on the merits, which came months later

71(a)

when the court granted an unopposed motion for
summary judgment. Mako makes no argument that
the appointment of the receiver was a dispositive
order; instead it simply cites Bowers v. The
Ophthalmology Group, 733 F.3d 647 (6th Cir. 2013),
as supporting its position. In Bowers, the Sixth
Circuit held that the district court erred by granting
summary judgment without ruling on a motion to
disqualify

counsel

and

then

declaring

the

disqualification motion moot. Id. at 655. Here, the
district court made no such ruling on the merits
before deciding the motion to disqualify counsel.
Bowers is distinguishable, and does not conflict
with the district court’s order of procedure.
Because we conclude that the district court erred in
failing to disqualify Winthrop as counsel for CRBT,
we must consider the appropriate remedy. The
question is whether the failure to disqualify
Winthrop

“indelibly

stamped

or

shaped”

the

proceedings. Firestone Tire & Rubber Co. v. Risjord,

72(a)

449

U.S.

368,

376

(1981).

In

Fiandaca

v.

Cunningham, 827 F.2d 825 (1st Cir. 1987), the First
Circuit grappled with a similar issue. Like this case,
the First Circuit concluded that the trial court had
allowed a lawyer to continue representation despite
an apparent conflict. Id. at 831. The court than
considered

whether

the

court’s

abuse

of

its

discretion resulted in an adverse impact on the
rights of the opposing party. Concluding that there
was none, the court found the error harmless. Id. at
831-32. We find this analysis persuasive. Here
Winthrop had no compromised ability to settle with
Mako, nor has Mako pointed to any change in its
settlement

posture because

of

the improper

representation. Given the combative procedural
history of this case, it appears the parties were
unlikely to settle, regardless of representation.
With regard to the merits, Mako has not
claimed

that

Winthrop

used

confidential

73(a)

information gained from preparing Mako’s bond
during its representation of CRBT in this suit. The
record reflects no actual breach of confidentiality
nor any reason to doubt that Winthrop upheld its
duty of confidentiality to its former client. Finally, it
was Mako’s counsel—not Winthrop—who failed to
oppose CRBT’s motion for default judgment, or in the
alternative, summary judgment. Thus, Mako’s loss
is more directly attributable to its own counsel’s
failure to act than anything the Winthrop firm did
or did not do. There is no reason to believe that
Mako’s lawyers would have acted any differently
had CRBT been represented by a different firm.
Given the failure to oppose the motion for judgment,
there is no reason to believe that the CRBT
representation

was

an

important,

let

alone

determinative, fact.
Finally, Mako makes no credible claim that
the ultimate outcome in the case was in any way
influenced by the conflicted representation. It points

74(a)

to no evidence that was improperly used or any
evidence that it was deprived from using because of
the conflict. Mako does not assert that it was
deprived of a chance to advance any argument or
claim because of the representation. In short, Mako
makes no showing of harm by the representation.

III.

Conclusion

For the foregoing reasons, we affirm the
district court’s judgment for money damages, and
we reverse the district court’s denial to disqualify
counsel in any future proceedings. As proceedings
continue in the case below and the Winthrop law
firm has a conflict of interest necessitating removal
as counsel, we remand for further proceedings
consistent with this opinion.

75(a)

APPENDIX C

UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
No: 18-1298
Cedar Rapids Bank and
Trust Company
Appellee
v.
Mako One Corporation, et
al.
Appellants

Appeal from U.S. District Court for the Northern
District of Iowa - Sioux City (5:17-cv-04035-LTS)
ORDER

The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
July 05, 2019

Order Entered at the Direction of the
Court: Clerk, U.S. Court of Appeals,

76(a)

Eighth Circuit.
/s/ Michael E. Gans

77(a)

1(a)

